CERTIFICATE OF SERVICE
No. 20-472
HOLLYFRONTIER CHEYENNE REFINING, LLC, HOLLYFRONTIER REFINING &
MARKETING, LLC, HOLLYFRONTIER WOODS CROSS REFINING, LLC, & WYNNEWOOD
REFINING CO., LLC,
Petitioners,
v.
RENEWABLE FUELS ASSOCIATION, ET AL.,
Respondents.
I, Peter D. Keisler, do hereby certify that, on this fifteenth day of April, 2021,
I caused three copies and an electronic copy of the Reply Brief in the foregoing case
to be served by first class mail, postage prepaid, and by email, on the following
parties:
MATTHEW W. MORRISON
Pillsbury Winthrop Shaw Pittman
1200 Seventeenth Street, N.W.
Washington, D.C. 20036
(202) 663-8000
matthew.morrison@pillsburylaw.com

ELIZABETH B. PRELOGAR
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
(202) 514-2217
SupremeCtBriefs@usdoj.gov

Counsel for Respondents Renewable
Fuels Association, American Coalition Counsel for Respondent United States
for Ethanol, National Corn Growers
Environmental Protection Agency
Association, National Farmers Union
/s/ Peter D. Keisler
PETER D. KEISLER
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

